EFFECTS OF AMTRAK’S POOR ON-TIME
         PERFORMANCE
      Federal Railroad Administration

       Report Number: CR-2008-047
       Date Issued: March 28, 2008
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Report on the Audit of the                                             Date:    March 28, 2008
           Effects of Amtrak’s Poor On-Time Performance
           Federal Railroad Administration
           Report Number CR-2008-047
  From:    David Tornquist                                                                  Reply to
                                                                                            Attn. of:   JA-50
           Assistant Inspector General
            for Rail and Maritime Program Audits
            and Economic Analysis
    To:    Federal Railroad Administrator

           This report presents the results of our audit of the effects of Amtrak’s poor on-time
           performance (OTP). This audit was requested by the Surface Transportation
           Subcommittee of the Senate Committee on Commerce, Science, and
           Transportation. The objective of this audit was to produce a quantitative
           assessment of the financial impact of Amtrak’s poor OTP. 1 More specifically, we
           estimated both the impact on revenues and costs as a consequence of Amtrak’s
           poor OTP.

           Amtrak’s poor OTP significantly undermines the viability of intercity passenger
           rail as an option for travelers and weakens Amtrak’s financial position by reducing
           its revenues and increasing its operating costs. Between Fiscal Year (FY) 2003
           and FY 2007, Amtrak’s OTP off the Northeast Corridor (NEC) 2 for long-distance
           routes 3 fell from an average of only 51 percent to 42 percent, and OTP for non-
           NEC corridor routes 4 fell from an average of 76 percent to 66 percent. The need to
           improve mobility, relieve congestion, and reduce oil consumption makes Amtrak’s
           performance and financial health a national concern.


           1
               Our office is also conducting an audit on the causes of Amtrak’s poor OTP at the request of the Senate
               Transportation Appropriations Subcommittee.
           2
               The NEC is the route connecting Boston, MA and Washington, DC by way of New York, NY, plus the Springfield,
               MA-New Haven, CT and Harrisburg, Pa-Philadelphia, PA branch lines.
           3
               Routes over 750 miles in length are considered long-distance. Routes shorter than 750 miles are called short-distance
               or corridor routes.
           4
               NEC routes have not exhibited the poor and declining OTP characteristic of the non-NEC routes.
                                                                                                                         2


We performed this audit in accordance with the generally accepted Government
Auditing Standards prescribed by the Comptroller General of the United States.
Exhibit A more fully describes our scope and methodology.

ON-TIME PERFORMANCE AFFECTS AMTRAK’S FINANCES
Amtrak is unable to generate sufficient revenues from ticket sales and other
sources to cover its operating costs or pay any of its debt or capital costs. As a
result, in FY 2008, Amtrak will receive a Federal subsidy of $1.3 billion,
including $475 million in operating subsidies. Poor OTP reduces ridership on
Amtrak trains because potential passengers cannot predict when their train will
arrive. It also increases costs, primarily by extending shifts, increasing staffing
requirements, and utilizing more fuel. Improving OTP could significantly improve
Amtrak’s finances. It would generate funds Amtrak could use to increase the
incentives to host railroads 5 both to improve the performance of Amtrak trains
operating on their tracks or reduce its reliance on Federal operating subsidies.

In FY 2006, average OTP across Amtrak’s long-distance routes was only
30 percent. For Amtrak’s corridor routes, average OTP was much higher, but still
only 67 percent (excluding the NEC). In FY 2007, the OTP of a number of long-
distance routes increased substantially, but only enough to raise the average for
long-distance routes to 42 percent. The reliability and timeliness of passenger rail
largely determines its viability as an alternative means of transportation. Poor
OTP has significant negative impacts on Amtrak’s financial condition and may
undermine Amtrak’s ability to retain and grow ridership.




5
    Host railroads own the track over which Amtrak operates, and are primarily comprised of the six Class 1 railroads.
                                                                                  3




         Figure 1. Average On-Time Performance of Amtrak Routes

       100%

       80%

       60%
 OTP




       40%

       20%

        0%
                   2001     2002   2003      2004       2005   2006      2007
                                          Fiscal Year

                          NEC      Long-Distance          Non-NEC Corridor

Source: Amtrak data.

Outside the NEC, where the issue of poor OTP is by far the most apparent,
Amtrak owns approximately 100 miles of track and primarily runs on rail lines
owned and dispatched by freight railroads. Amtrak has a statutory right to not
only operate over the tracks of these host railroads, but has also been granted
preference over host transportation in using a rail line, junction, or crossing.
However, although there is disagreement between Amtrak and the host railroads as
to the exact meaning of this provision, based on its statutory right Amtrak has
entered into negotiated agreements with the host railroads that specify the terms of
Amtrak’s operations over host tracks, which include public train schedules, when
scheduled track maintenance can take place, operating speeds, and the level of
track infrastructure. These agreements also incorporate the concept of performance
payments and penalties. Performance payments are made by Amtrak to the host
railroads when certain OTP or delay outcomes are achieved. Host railroads may
pay performance penalties to Amtrak when OTP or delays fail to meet certain
thresholds.
                                                                                                                      4



RESULTS IN BRIEF
Achieving reliable OTP would substantially improve Amtrak’s finances. We
estimate, for example, that an 85 percent OTP off the NEC in FY 2006 would
have reduced Amtrak’s operating loss by 30 percent or $136.6 million (see
figure 2). 6 Amtrak’s revenues would increase by $111.4 million as more travelers
would choose to take the train if they become more confident that it will arrive on
time. Amtrak’s expenses would be reduced by $39.3 million mostly due to less
required overtime as a result of fewer late trains, and lower fuel costs as a result of
less time spent idling and less frequent accelerations and decelerations. The
improved OTP also would require an increase in net performance payments paid
to the host railroads of $14.1 million. 7, 8

Working with the host railroads to achieve an 85 percent OTP off the NEC would
be a difficult task. However, Amtrak may be able to utilize a portion of the
projected benefits to further incentivize the host railroads to provide this enhanced
level of service.

           Figure 2. Calculation of Net Effects at 85 Percent OTP

                         Additional Revenues
                            $111.4 million




                                                                                      Cost Savings
                                                                                      $39.3 million


                   NET GAINS                                                                    Net Perform.
                  $136.6 million                                                                 Payments
                                                                                                  ($14.1)
                                                                                                  million



                                  $50 million                      $100 million                        $150 million
Numbers may not add up
due to rounding.
Source: OIG analysis.


6
    The portion of the reductions in operating losses associated with state-supported routes would largely reduce state
    payments to Amtrak, and would not generally impact Amtrak’s finances. This portion amounts to $21.5 million for
    the 85 percent scenario.
7
    Our estimates of performance payments for OTP rates below 100 percent are somewhat understated. They do not
    take into account factors that would make trains on-time for the purpose of making payments under contractual
    allowances that would not contribute to improving route OTP. Exhibit A includes a detailed discussion of this issue.
8
    We estimated the impact of OTP on revenues using a set of econometric models. Our estimates of costs savings were
    developed through the construction of detailed models of staff schedules. We estimated the effects on performance
    payments using data at the level of individual checkpoints along the routes. Exhibit A provides a more detailed
    discussion of our approach.
                                                                                                                5


Achieving reliable OTP would substantially improve Amtrak’s finances. We
found that if Amtrak had achieved a 75 percent OTP in FY 2006, it would have
experienced an estimated reduction in its operating loss of $122.1 million. As
previously discussed, an OTP of 85 percent across its routes outside the NEC in
FY 2006, would have resulted in a $136.6 million net gain. Improvement to
100 percent OTP would slightly reduce this figure to $136.4 million (see figure 3).
As OTP approaches 100 percent, the large additional revenue gains would be more
than offset by marked growth in performance payments paid to the host railroads
as a result of the improved OTP, while cost savings would not rise significantly.

          Figure 3. Fiscal Effects of Improved OTP for FY 2006
 $150
                                                                                                  
                        $122                                $137                                 $136
 $125                     

 $100


  $75


  $50


  $25

                $91      $37                        $111    $39                         $143       $41
    $0
                         (5.8)   $6                         (14.1 $14                              (48.0 $48

  $25


  $50


  $75
                      75% OTP                            85% OTP                                100% OTP

                 Revenues         Cost Savings          Net Performance Payments                Total Effect

All figures are expressed in millions of dollars. Numbers may not add up due to rounding.
Source: OIG analysis.

Long-distance routes would generate the greatest gains from achieving
reliable OTP because their current performance is so poor. In FY 2006,
average OTP across Amtrak’s long-distance routes was only 30 percent compared
to an average OTP of 67 percent on its short-distance routes. As a result, bringing
the long-distance trains up to an 85 percent OTP, an average increase in OTP of
                                                                                                             6


55 percentage points, led to larger changes in revenues and costs than the increase
in OTP of only 18 percentage points for short-distance routes. Figure 4 displays a
breakdown of results by long-distance versus short-distance routes for the
85 percent OTP scenario.

   Figure 4. Results by Route Type for 85 Percent OTP Scenario
 $120
                                  
                                 $109
 $100



  $80



  $60



  $40

                                                                                       
                                                                                      $28
  $20

                                                                                       $5
                     $85         $34                                       $27
    $0
                                             $10
                                                                                                     $4

  $20
                           Long- Distance                                        Short-Distance


                  Revenues         Cost Savings          Net Performance Payments            Total Effect

All figures are expressed in millions of dollars. Numbers may not add up due to rounding.
Source: OIG analysis.

Revenue increases would account for the largest share of the improvement in
Amtrak finances resulting from achievement of reliable OTP. Travelers who
have the option to choose among transportation modes can readily choose to take
the train if they become more confident that it will arrive on time. This makes
revenues relatively responsive to changes in OTP. In contrast, Amtrak’s operating
cost structures, particularly those related to labor, incorporate significant rigidities
as a consequence of safety regulations and negotiated agreements. As a result, the
variation in Amtrak’s operating costs associated with changes in OTP would be
moderate by comparison.
                                                                                  7


Future increases in fuel and labor costs would only increase the financial
importance to Amtrak of achieving reliable OTP. Fuel prices in FY 2006 were
much lower than they are currently. Since we found that better OTP generally
reduces fuel consumption, the recent price growth would increase the estimated
cost savings from better OTP. In addition, Amtrak recently reached a tentative
labor agreement with several of its unions, which includes an increase in wages.
This may set a pattern for other labor negotiations. Since better OTP reduces
labor hours for some workers, any new agreements which stipulate an increase in
wages for those workers would translate into greater cost savings from improved
OTP.

FINDINGS

Achieving Reliable OTP Would Substantially Improve Amtrak’s
Finances
Achieving reliable and improved OTP would increase Amtrak’s ridership and
therefore its revenues and reduce its operating costs. Travelers who have the
option to choose among transportation modes can readily choose to take the train
if they become more confident that it will arrive on time. This makes revenues
relatively responsive to changes in OTP. The results of our econometric analysis
estimated that Amtrak’s FY 2006 revenues would have increased by
$111.4 million at an 85 percent OTP level. On the cost side, Amtrak’s labor
expenses would be reduced mostly due to less required overtime as a result of late
trains. Fuel costs would also be cut as a result of less time spent idling and less
frequent accelerations and decelerations than would otherwise be required. Our
analysis concluded that $39.2 million in cost savings would have been accrued in
FY 2006 had Amtrak achieved an 85 percent OTP off the NEC. Finally, an
increase in OTP to 85 percent in FY 2006 would have increased the net
performance payments paid to the host railroads by an estimated $14.1 million due
to the improved performance.

When these components are added together, if Amtrak were to have operated at an
85 percent OTP off the NEC in FY 2006, its operating loss would have been
reduced by a total of $136.6 million. These potential returns from reliable OTP
could offset a significant share of Amtrak’s recent annual cash losses. For
example, our estimate of Amtrak’s savings had it reached an 85 percent OTP off
the NEC in FY 2006 amounts to 30 percent of Amtrak’s cash loss in FY 2006 of
$452.4 million.

The finding of substantial returns as a result of reliable OTP holds over a range of
OTP rates. Our analysis indicated that OTP rates of 75 percent and 100 percent
would result in net gains of $122.1 million and $136.4 million, respectively. Both
                                                                                                    8


revenues and net performance payments change considerably over the range of
OTP examined, offsetting each other to some extent, while costs fluctuate to a far
lesser extent

Long-Distance Routes Would Generate the Greatest Gains from Achieving
Reliable OTP Because Their Current Performance is so Poor
Across the OTP scenarios examined, the net gains associated with the long-
distance routes are almost four times greater than those realized from the short-
distance routes. Tables 1 and 2 provide a breakdown of results by route type for
the 75 and 100 percent OTP scenarios (figure 4 on page 6 provides similar
information for an 85 percent OTP rate).

          Table 1. Results by Route Type for 75% OTP Scenario

                                                                          Long-           Short-
Categories of Effects
                                                                         Distance        Distance

Incremental Revenues                                                        $69.5         $21.1
Cost Savings
    On-Board Services                                                       $13.0          $0.9
    Trainmen & Enginemen                                                    $15.3           N/A
    Fuel                                                                      $3.9         $4.3
Total Cost Savings                                                          $32.2          $5.1
Incremental Net Performance Payments                                       ($3.2)         ($2.7)
TOTAL                                                                       $98.5         $23.6
All figures are expressed in millions of dollars. Numbers may not add due to rounding.
Source: OIG analysis.
                                                                                                            9




          Table 2. Results by Route Type for 100% OTP Scenario

                                                                           Long-              Short-
Categories of Effects
                                                                          Distance           Distance

Incremental Revenues                                                        $107.8              $35.1
Cost Savings
      On-Board Services                                                       $14.6              $1.0
      Trainmen & Enginemen                                                    $17.5               N/A
      Fuel                                                                     $4.0              $4.4
Total Cost Savings                                                            $36.1              $5.3
Incremental Net Performance Payments                                        ($36.6)           ($11.3)
TOTAL                                                                       $107.3              $29.1
All figures are expressed in millions of dollars. Numbers may not add due to rounding.
Source: OIG analysis.

Improvements in OTP on long-distance trains generated greater benefits in every
category of effects considered – revenues, costs, and net performance payments –
than improvements in OTP on short-distance routes. The primary reason for this
is that the poorer OTP of long-distance (30 percent in FY 2006) as compared with
short-distance routes (67 percent in FY 2006) translates into a comparatively
larger gap between FY 2006 actual OTP rates and target OTP rates for the long-
distance routes. As a result, bringing the long-distance trains up to target OTP
rates led to larger changes in revenues and costs than the increase in OTP for short
distance routes.

There are also more specific reasons for this finding with respect to the two largest
categories of Amtrak’s labor costs: (1) trainmen and enginemen (T&E), who run
the train; and (2) on board service (OBS) staff, who are dedicated to passenger
care. T&E crews are guaranteed eight hours pay per shift, which is longer than the
travel times on almost all short-distance routes As a result, if a short-distance train
runs late, it may not result in extra pay for these employees. 9 In addition, many
short-distance trains have only a single OBS staffer. In contrast, long-distance
trains usually carry several types of cars, such as dining cars, lounge cars, and


9
    There were a handful of short-distance routes on which savings related to T&E would likely have accrued in
    FY 2006 from improved OTP. However, all of those routes shared crews among multiple trains, which made
    modeling T&E crew scheduling on them impractical.
                                                                                                                      10


sleeper cars that require additional, specialized OBS personnel. 10 Therefore, any
percentage reduction in labor hours reduces costs to a greater extent on the long-
distance routes, due to their much larger OBS staffing base.

Revenue Increases Would Account for the Largest Share of the Gains
from Achieving a Reliable OTP
Travelers who have the option to choose among transportation modes can readily
choose to take the train if they become more confident that it will arrive on time.
This makes revenues relatively responsive to changes in OTP. In contrast,
Amtrak’s operating cost structures, particularly those related to labor, incorporate
significant rigidities as a consequence of safety regulations and negotiated
agreements. As a result, the variation in Amtrak’s operating costs associated with
changes in OTP would be moderate by comparison. Table 3 illustrates this for the
85 percent OTP scenario.

Table 3. FY 2006 Actual Values and Estimates for Improved OTP

                                                                                 Estimated
                                                                                                          Percent
 Categories of Effects                                          Actual          @85 Percent
                                                                                                          Change
                                                                                   OTP

 Revenues                                                        $589.1               $700.5                18.9%
 Costs
         On-Board Services                                         $92.6                $77.9             (15.9%)
        Trainmen & Enginemen                                       $97.7                $81.7             (16.4%)
        Fuel                                                   C$100.8                  $92.6              (8.1%)
 Total Costs                                                     $291.1               $252.2              (13.6%)
 Net Performance Payments                                          $15.3                $29.5               92.8%
All figures are expressed in millions of dollars.
Source: OIG analysis.

The greater responsiveness of revenues implies that travelers have greater
flexibility in choosing their mode of travel than Amtrak has in adjusting its cost
structures. If travelers have options, and rail travel is unreliable, they can choose
to make their trips by modes other than rail. Should rail travel increase in
reliability, then the number of passengers can grow to the extent that travelers
previously using other modes choose to take the train.


10
     Staffing on the Auto Train is an exception to this statement, since Auto Train OBS staff function interchangeably.
                                                                                                                        11


Labor and Fuel Costs Would be Moderately Affected by Changes in OTP

We determined that the primary cost categories that would be affected by changes
in OTP are labor -- T&E and OBS labor in particular 11 -- and fuel. Both T&E and
OBS staff can incur overtime when trains run late. In addition, Amtrak builds two
hours of leeway into the daily schedules of many T&E crews to reduce the
likelihood that delays will cause a crew to run up against its maximum hours of
service. 12 Delays increase fuel consumption by increasing the time spent idling.
They also result in more frequent accelerations and decelerations than would
otherwise be required.

The extent to which labor costs would change as a consequence of improved OTP
is limited by a variety of significant constraints. Some of these are a consequence
of safety regulations. For example, regulations specify the number of hours
enginemen can work in a single shift. Others derive from negotiated agreements.
For example, during each shift a T&E crew can only work within a single,
predefined geographic area, the boundaries of which are set through labor
negotiations. Consequently, the labor cost savings are relatively moderate.

Even though improved OTP would lead to a reduction in some very fuel-intensive
activities, the percentage change in fuel consumption that would result from
improved OTP is also limited. Fuel consumption is primarily driven by the
amounts required to pull a given amount of tonnage over a certain distance, which
improved OTP would not affect.

Net Performance Payments Would Vary Substantially Over the Range of
OTP Considered

Net performance payments would rise should OTP improve from FY 2006 rates to
any of the target rates considered, as, at a minimum, performance penalties would
no longer be collected. Net performance payments are projected to increase to
$5.8 million at the 75 percent OTP scenario primarily because of penalties no
longer received or used to offset payments to host railroads. 13

The penalties collected are not as large as might be expected given the poor OTP
characterizing so many routes because in many agreements a host railroad’s
liability for penalties is capped at the level of the performance payments received

11
     We also considered the impacts on mechanical workers, but could not independently estimate them. Amtrak’s
     calculations of the increments in these labor costs due to poor OTP are imprecise and relatively small, $0.5 million to
     $1.7 million in FY 2006.
12
     When a T&E crew reaches its maximum hours of service, it must cease operations, and the train it was running
     cannot start up again until a relief crew arrives. The original crew continues to be paid until it is dropped off at its
     destination.
13
     Most of Amtrak’s agreements with the host railroads call for performance penalties to be assessed when OTP falls
     below 70 percent, and require performance payments to begin when OTP rises above 80 percent.
                                                                                 12


by that host in the previous year. This significantly reduces the penalties for
continual poor performance. About $41.5 million in penalties was excused in
FY 2006 as a consequence of capping provisions.

At the higher target OTP levels, Amtrak would make additional performance
payments to the host railroads. Achieving an 85 percent OTP in FY 2006 would
have caused net performance payments to host railroads to grow by $14.1 million.
We further found that performance payments would have grown by $47.9 million
in the 100 percent OTP scenario. The finding of financial benefits from reaching
better OTP rates far in excess of the associated changes in net performance
payments raises the possibility of further incentivizing host railroads to support
improved OTP.

Increases in Fuel and Labor Costs Would Only Increase the Financial
Importance to Amtrak of Achieving Reliable OTP
Our estimates of the fuel cost savings generated from achieving reliable OTP
would rise in proportion with the cost of fuel per gallon. In FY 2006, Amtrak paid
an average of $1.63 per gallon of fuel. More recently, in January 2008, the average
fuel price paid by Amtrak reached $2.20. Therefore, if Amtrak had faced that price
throughout FY 2006, our fuel cost savings estimates would have risen
35.0 percent.

Amtrak has reached a tentative agreement with its T&E workers that incorporates
higher wages, and its labor agreement with its OBS workers has expired. Since
better OTP generally reduces labor hours for T&E and OBS workers, and
overtime hours in particular, any new agreement that stipulates an increase in their
wages above those paid in FY 2006 would translate into greater cost savings from
improved OTP than those projected in this report.

CONCLUSION
Achieving reliable OTP would substantially improve Amtrak’s finances. We
estimated, for example, that reaching an 85 percent OTP off the NEC in FY 2006
would have provided Amtrak with an additional $136.6 million. In addition to the
financial benefits for Amtrak, the estimated increase in riders indicates that
improving OTP is an important element in making rail a more viable alternative
for travelers. A large number of travelers who had previously used other modes
would choose to travel by rail if it was reliably on-time. This has implications for
reducing congestion on airways and roads. Working with the host railroads to
achieve an 85 percent OTP off the NEC would be a difficult task. However,
Amtrak may be able to utilize a portion of the projected benefits to further
incentivize the host railroads to provide this enhanced level of service. That is,
                                                                                13


Amtrak could increase its performance payments to host railroads to encourage
them to improve the performance of Amtrak trains operating on their tracks.

We appreciate the courtesies and cooperation of Amtrak representatives during the
preparation of this audit. For any questions concerning this report, please call me
at (202) 366-1981 or Betty Krier, the Project Manager, at (202) 366-1422.


                                        #


cc:   Audit Liaison, OST, M-1
      Audit Liaison, FRA, RAD-43
      Amtrak Liaison
                                                                                    14




EXHIBIT A. SCOPE AND METHODOLOGY

SCOPE
This audit was requested in February 2007, by the Subcommittee on Surface
Transportation of the Senate Committee on Commerce, Science, and
Transportation. The objective of the audit was to estimate quantitatively the
effects of Amtrak’s poor OTP on its “bottom line”. This required estimation of
the effects of poor OTP on Amtrak’s revenues, costs and net performance
payments. CRA International (CRA) calculated the revenue gains from improved
OTP. We produced the results for the costs and net performance payments.
Routes on Amtrak’s Northeast Corridor were excluded from the analyses because
they did not exhibit the poor and declining OTP characterizing the rest of the
system. Specifically, we excluded the Acela, Metroliner, Regional, and Keystone
routes.

We performed this audit in accordance with generally accepted Government
Auditing Standards prescribed by the Comptroller General of the United States.

METHODOLOGY
Pending legislation 14 would impose penalties on host railroads should Amtrak
OTP fall below 80 percent due to reasons within a host railroad’s control. In
recognition of this, we focused our analysis on an OTP of 85 percent because it
represents a limited improvement over the 80 percent OTP threshold. We chose
OTP rates of 100 percent and 75 percent to represent the upper and the lower
bounds, respectively, of reliable OTP. We derived our results by modeling what
revenues, costs and net performance payments would have been in FY 2006 at
each of the target OTP rates, and then taking the difference between our modeling
estimates and actual values. We conducted checks of all the data used in the
analyses to assess reasonableness and concluded that the data was sufficient to
support our conclusions.

Revenues
First, CRA estimated the impact on Amtrak ridership from changes in minutes of
delay. CRA expected that delays would only affect ridership if they persisted for
some time. CRA further expected that reputational effects and the variability of
delay would also matter. The measure of delay used in the econometric model of
the relationship between ridership and minutes of delay incorporated all of these

14
     S.294 – The Passenger Rail Investment and Improvement Act of 2007, Sec. 209.


Exhibit A. Scope and Methodology
                                                                                  15


considerations. That measure was the accumulated delay for all trains arriving and
departing from the point of origin for the given trip divided by its standard
deviation. Other independent variables entering into the estimation accounted for
the relative attractiveness of other travel modes and economic growth.

Second, in order to convert the ridership-delay relationship to the delay-OTP
relationship, CRA estimated current standardized delay as a function of OTP.
Third, the relationship between ridership and changes in OTP was derived from
the results obtained in the previous stages. Fourth, the ridership associated with
improved OTP multiplied by Amtrak’s average yields provided the revenues at the
OTP targets. Finally, CRA generated the revenue gains by comparing the
revenues at the target OTP rates with actual FY 2006 revenues. The data used for
all the estimations covered FY 2001 through FY 2006.

Costs
We identified cost items that varied with on-time performance through interviews
with Amtrak staff and a line-by-line examination of the costs in Amtrak’s Route
Profitability System (RPS) for FY 2006. These cost items were: three types of
labor (OBS, T&E, and Maintenance) and fuel. We limited our cost analyses to
routes with an OTP less than 75 percent for FY 2006 because we did not expect
significant cost savings from small increases in OTP for these routes. (This
criterion excluded one long-distance and two corridor routes.) We interviewed
Amtrak staff to determine the most appropriate means of modeling the cost items.

We developed our cost models based on Amtrak schedules from the System
Timetable for Spring-Fall, 2006. The 100 percent OTP scenario was modeled
exactly to schedule. We calculated the increase in run-times associated with the
75 and 85 percent OTP rates by analyzing six years of monthly delay data for all
Amtrak trains. We isolated the observations with OTP rates similar to the target
rates, and derived an average increase in run-time for each scenario. For example,
an OTP rate of 85 percent was associated with an average increase in run-time of
1.99 percent for long-distance routes and 4.59 percent for corridor routes. We
adjusted schedule times for each model using these parameters.

On-Board Service Labor

OBS staff in FY 2006 included chefs, food specialists, and lead service attendants.
It also included lounge, parlor, coach car, and sleeping car attendants. All of these
positions are subject to labor agreements that guarantee a minimum of 180 hours
per employee. On long-distance routes, most Amtrak OBS staff works on a train
as it travels from the initial departing station to the terminal station, and then
returns to the initial station by working the same route back after a scheduled
break. The OBS staff also consists of “extraboard” employees that work when


Exhibit A. Scope and Methodology
                                                                                   16


full-time employees are unavailable. Our long-distance OBS models incorporated
all of these considerations, as well as information on break times from actual
Amtrak staff schedules. Our final headcount estimates were compared to Amtrak’s
actual headcount by route for FY 2006, when possible, to check for
reasonableness.

For corridor routes, OBS staff can work on several different routes during a trip,
which made it difficult for us to calculate monthly labor requirements. Instead, we
used information from Amtrak on the monthly number of hours scheduled and the
headcount for each position for each route. This information was based on
planned route schedules and therefore was a good estimate of the number of hours
of labor required to operate Amtrak corridor routes at 100 percent OTP. Since the
savings in OBS costs from achieving target OTP rates amounted to a relatively
small percentage of existing OBS costs, we limited our OBS analyses to those
routes that had at least $0.5 million in OBS expenses in FY 2006. This meant we
excluded 14 out of the 20 corridor routes from our analyses.

Trainmen and Enginemen Labor

Trainmen and enginemen (T&E) schedules on Amtrak trains are largely
determined by labor agreements and federal regulations, and these largely shaped
our modeling of these costs. The basic T&E crew for a long-distance train is
composed of a passenger engineer (engineman), a passenger conductor (trainman)
and an assistant passenger conductor (trainman). A second passenger engineer is
required for all shifts longer than six hours. Amtrak also incorporates padding into
its trainmen and enginemen schedules in response to poor OTP on its long-
distance routes. Specifically, Amtrak adds two hours of holdover in scheduling
many T&E crews. We concluded that this padding could be reduced to one hour
for the improved OTP scenarios used in our analyses.

The first step of our analysis was to calculate the cost of a crew for a single run of
each route using the most cost-effective crew configuration. We used five
different crew configurations for our analysis, all of which complied with federal
regulations and labor agreements. Once the most cost-effective crew configuration
was chosen for each route, we multiplied the frequency of roundtrips by the crew
costs per roundtrip and derived the total labor costs for T&E crews.

There were only a handful of corridor routes to which T&E savings would likely
accrue from improved OTP, because travel times on most corridor routes are less
than the hours guaranteed for T&E per shift. However, the sharing of T&E crews
servicing in those two routes with other routes made isolating their costs
impractical.



Exhibit A. Scope and Methodology
                                                                                     17


Maintenance Staff Labor

We interviewed Amtrak staff to determine a method for modeling labor costs for
maintenance staff that would vary with different levels of OTP. At each route
endpoint, Amtrak performs turnaround servicing on its trains. When trains run
late, maintenance staff may incur overtime waiting for them. However, Amtrak
does not currently precisely track the number of labor hours associated with trains
running late. Amtrak provided us with an estimated range of overtime costs
attributable to poor on-time performance in FY 2006 of $0.5 to $1.7 million. Due
to the imprecision and low value of the estimate, along with our inability to verify
it, we decided not to factor the potential savings from maintenance costs into our
estimates.

Fuel

We used Amtrak’s methodology for estimating fuel use by train as the basis of our
model and then adjusted the fuel use to account for better OTP. Amtrak divides
fuel use into four major components, as follows: locomotive fuel, which is the fuel
required for the locomotive to pull itself; car fuel, which is the fuel required for the
locomotive to pull the cars behind it in the train; hotel fuel which encompasses
the fuel to run the train’s amenities, such as HVAC, whether the train is moving,
stopped, or delayed; and idle fuel, which is the fuel used by a locomotive to idle in
a yard or terminal. We modeled each of these to derive total fuel usage at each of
the target OTP rates.

Net Performance Payments
Performance incentives and penalties are typically determined on a monthly basis
at the level of dozens of individual check points. Amtrak provided performance
incentives and penalties data for FY 2006 at the individual check point level. We
used this data to model performance incentives and penalties at the target OTP
rates for a set of host railroads that together accounted for 95 percent of potential
performance incentives off the NEC. We also used this data to determine the
actual performance payments and penalties paid in FY 2006.

In practice, there are discrepancies between the OTP used for the purposes of
calculating net performance payments and the OTP reported at the route level.
They derive from there being factors that affect OTP that are beyond the host
railroads’ control, such as weather or an Amtrak equipment failure. Trains affected
by these factors are excluded from the calculation of OTP for the purposes of net
performance payments, but are included in the calculation of route OTP. Exact
determination of the net performance payments required at a certain route OTP
necessitates accounting for the excluded trains.



Exhibit A. Scope and Methodology
                                                                               18


We were able to incorporate the additional payments needed if some of the
excluded trains were to be made to be on-time. Those trains are tracked in the
Amtrak data as “do not count” or “did not operate”, and largely represent those
whose OTP is beyond the host railroads’ control due to weather or third party
actions. However, there were two other sources of trains that would be considered
on time for payment but not for route purposes that we did not account for. The
first of these are trains that are considered to be “on-time due to allowances”.
These trains largely represent those whose performance is beyond host railroads’
control due to problems originating with Amtrak. The second are trains that are
on-time within the tolerance for each checkpoint (generally 10 minutes on the
long-distance routes), but are late within the tolerance of the route. Amtrak does
not maintain data on the numbers of trains in either category. Our lack of
accounting for these factors means that our estimates of net performance payments
required for the 75 percent and 85 percent OTP scenarios were somewhat
understated. Our estimates for the 100 percent OTP scenario were not affected by
these factors.




Exhibit A. Scope and Methodology
                                                                         19



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                                 Title

  David Tornquist                      Assistant Inspector General for
                                       Rail and Maritime Program
                                       Audits and Economic Analysis

  Mitchell Behm                        Program Director

  Betty Krier                          Supervisory Economist/Project
                                       Manager

  Jerrod Sharpe                        Economist

  Jovanny Roque                        Economist

  Keith Klindworth                     Economist

  Chia-Mei Liu                         Economist




Exhibit B. Major Contributors to This Report
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
               Effects of Amtrak’s Poor On-Time Performance

                        Section 508 Compliant Presentation

      Figure 1. Average On-Time Performance of Amtrak Routes
                             (percent)
                                                     Fiscal Year
                            2001    2002     2003       2004     2005     2006    2007
NEC                         83.76   85.52    79.29      75.78 78.17       81.00   85.51
Long-Distance               54.38   49.51    50.84      42.56 41.38       29.99   41.60
Non-NEC Corriodor           73.25   75.49    75.65      73.51 70.44       67.33   65.50



           Figure 2. Calculation of Net Effects at 85 Percent
Additional Revenues + Cost Savings - Performance Payments = Net Gains
   $111.4 million     $39.3 million      $14.1 million     $136.6 million




Figure 3. Fiscal Effects of Improved OTP for FY 2006
Categories of Effects          75 percent    85 percent    100 percent

Revenues                             $90.6       $111.4         $142.9

Cost Savings
 On-Board Services                   $13.9        $14.7           $15.6
 Trainmen & Enginemen                $15.3        $16.0           $17.5
 Fuel                                 $8.2         $8.2            $8.4
  Total Cost Savings                 $37.3        $38.9           $41.4

Net Performance Payments            ($5.9)       ($14.2)        ($47.9)

           TOTAL                    $122.0       $136.1         $136.4
  Figure 4. Results by Route Type for 85 Percent
                   OTP Scenario
                    (in millions)

   Categories of Effect        Long-distance    Short-distance
Revenues                                 $ 85              $ 27

Costs
 On-Board Services                        14                1
 Trainmen & Enginemen                     16              N/A
 Fuel                                      4                4
                   Subtotal             $ 34               $5

Performance Payments                   ($ 10)             ($ 4)

                       Total           $ 109              $ 28
